                         Office of Inspector General
                         Legal Services Corporation



IDSpcctor General
Jcffiey E. Schanz

3333 K St=<, NW, 3rd Floor
Woshingron, DC 20007-3558
202.295.1660 (p) 202.337.6616 (f)
www.oig.lsc.gov



          May 9, 2013

          Richard Austin, Esq.
          Executive Director
          Legal Services of the Virgin Islands, Inc.
          3017 Orange Grove
          Christiansted, VI 00820-4375

          Dear Mr. Austin :

          Enclosed is the Office of Inspector General's final report of our audit on Selected
          Internal Controls at Legal Services of the Virgin Islands, Inc. (LSVI). The OIG considers
          the actions taken by LSVI management as responsive to our recommendations. The
          OIG considers both recommendations closed. Your comments are shown in their
          entirety as an appendix to our report.

          We thank you and your staff for your cooperation and assistance.

          Sincerely,



        ~;,J§-
          Inspector General

          Enclosure


          cc:       Legal Services Corporation
                    Jim Sandman
                    President

                    Lynn Jennings
                    Vice Pres ident for Grants Management




                                                                                      =ILLSC
                                                                                      II     "'-ric.... r-...a- fw Eop.ol juuiu
     LEGAL SERVICES CORPORATION
     OFFICE OF INSPECTOR GENERAL




REPORT ON SELECTED INTERNAL CONTROLS


LEGAL SERVICES OF THE VIRGIN iSLANDS, INC

                RNO 254000


             Report No. AU13-05


                 May 201 3


               www.oig.lsc.gov
                                 INTRODUCTION

In accordance with the Legal Services Corporation (LSC) Accounting Guide for LSC
Recipients, August 2010 (Accounting Guide), Chapter 3, an LSC grantee "... is required
to establish and maintain adequate accounting records and internal control procedures."
The Accounting Guide defines internal control as follows:

      [T]he process put in place, managed and maintained by the
      recipient's board of directors and management, which is designed
      to provide reasonable assurance of achieving the following
      objectives:

      1. safeguarding of assets against unauthorized use or disposition;
      2. reliability of financial information and reporting; and
      3. compliance with regulations and laws that have a direct and
         material effect on the program.

Chapter 3 of the Accounting Guide further provides that each grantee "must rely upon
its own system of internal accounting controls and procedures to address ... concerns"
such as defalcations and meeting the complete financial information needs of its
management.


                                    OBJECTIVE

The overall audit objective was to assess the adequacy of selected internal controls in
place at Lega! Services of the Virgin !slands, Inc. (grantee or LSVI) as the controls
related to specific grantee operations and oversight, including program expenditures,
and fiscal accountability. Specifically, the audit evaluated selected financial and
administrative areas and tested the related controls to ensure that costs were
adequately supported and allowed under the LSC Act and LSC regulations.


                         SCOPE AND METHODOLOGY
To accomplish the objective, controls over disbursements, fixed assets, cost allocation,
contracting, internal management reporting and budgeting, derivative income, and
employee benefits and reimbursements were reviewed. To obtain an understanding of
the internal controls over these areas, grantee policies and procedures were reviewed,
including any manuals, guidelines, memoranda, and directives setting forth current
grantee policies. Grantee officials were interviewed to obtain an understanding of the
internal control framework, and grantee management and staff were interviewed as to
their knowledge and understanding of the processes in place. Computer-generated
data provided by th e grantee was relied on to determine whether entries recorded in

                                           1
computer systems matched the information contained on the source documents.
However, the Office of Inspector General (OIG) did not test the general or application
controls over the computer system. Fieldwork was conducted at the grantee's main
office in SI. Croix, U.S.virgin Islands (USVI).

LSC provided $305,511 in funding to Legal Services of the Virgin Islands for 2012. This
represents about 20 percent of the total funding of $1 ,533,148 received from all sources
for LSVI in 2012. To test for the appropriateness of expenditures and the existence of
adequate supporting documentation, disbursements from a judgmentally selected
sample of employee and vendor files were reviewed. The sample of 83 transactions
totaling $172,218.93 represented 5.2 percent of the over $3.3 million the grantee
received during the two year period of January 1, 2011 , through December 31, 2012.
Of the $172,218.93 tested, $37,646.21 was charged to LSC. To assess the
appropriateness of grantee expenditures, we reviewed invoices, vendor lists, and
general ledger details. The appropriateness of grantee expenditures was evaluated on
the basis of the grant agreements, applicable laws and regulations, and LSC policy
guidance.

To review internal controls over internal management reporting and budgeting , the
grantee's system and processes were compared to those detailed in the Fundamental
Criteria of an Accounting and Financial Reporting System (Fundamental Criteria)
contained in the Accounting Guide.

This review was limited in scope and not sufficient for expressing an opinion on the
entire system of grantee internal controls over financial operations or compliance with
lSC regulations.

The on-site fieldwork was conducted from January 28 through February 1, 2013.
Documents reviewed pertained to the period January 1, 2011 through December 31,
2012. Our work was conducted at the grantee's office in SI. Croix, USVI and at LSC
Headquarters in Washington, DC.

This audit was conducted in accordance with generally accepted government auditing
standards. Those standards require that the audit be planned and performed to obtain
sufficient, appropriate evidence to provide a reasonable basis for the findings and
conclusions based on the audit objectives. The OIG believes the evidence obtained
provides a reasonable basis for the findings and conclusions based on audit objectives.


                             OVERALL EVALUATION

Generally, internal controls reviewed at Legal Services of the Virgin Islands, Inc. were
adequate as the controls related to specific grantee operations and oversight, including
program expenditures, and fiscal accountability.        However, some policies and
procedures needed to be better documented or formalized .                The grantee's


                                            2
disbursements that the OIG tested generally were adequately supported, allowable, and
properly allocated to LSC.

Specifically, we noted that LSVI needed to update parts of the accounting manual to be
consistent with the Accounting Guide for LSC Recipients (2010 Edition) . Areas such as
physical inventory and contracting needed to be better defined and documented in the
accounting manual.


                                 AUDIT FINDINGS

The LSVI Accounting Manual Needs to be Updated

During our visit, we found that the LSVI Accounting manual needed to be updated in
some areas. Specifically, the accounting manual needed to address or be updated in
the areas of physical inventory and consulting and service contracts. As a condition of
the grant, grantees are required to adopt accounting policies and procedures that meet
the requirements contained in LSC's Accounting Guide. The grantee must modify those
policies and procedures as necessary when the Accounting Guide is amended or a new
Accounting Guide is issued .

Inventory. Documentation to detail the bi-annual taking of phYSical inventory was not
available or not done. The LSC's Accounting Guide requires that a physical inventory
be documented. Because local procedures did not explicitly require documenting the
process and results of the inventory, the current CFO did not have records to show what
had been done prior to his arrival at the program . Procedures required that any
adjustments be made to the inventory cards. If no adjustments are needed, there would
be no evidence that an inventory was done. Without a record of the inventory
conducted , accuracy of records may be compromised and historical information may not
reflect current inventory on-hand .

The last inventory taken at L8VI's 8t. Croix office was in 2010. The last inventory taken
at LSVI's St. Thomas office was believed to be in 2008. The LSC Accounting Guide
requires that an inventory of accountable property be taken at least every two years.
The prior CFO did not conduct bi-annual inventories as required by the accounting
manual. The taking of inventory is an internal control that helps to prevent the loss of
equipment and to identify potential losses in a timely manner. Without bi-annual
inventories, L8VI managers may not identify losses in a timely manner.

Consulting and Service Contracts Policy and Procedures. The L8VI does not have
specific policies and procedures to address the use of consultants or contracts. The
LSC Accounting Guide requires that grantees have policies that address contracts and
consultants. Without proper policies and procedures, grantees may overpay for contracted
goods and services and may not receive the best value for the funds expended.



                                            3
Prior to our visit, the LSVI accounting manual had not been updated in several years.
While minor changes were made prior to our visit, several areas are still in need of
revision and updating. The ED agreed that the manual needed to be reviewed and
updated to make it consistent with the LSC Accounting Guide.

Without formal documented policies and procedures, there is no assurance that staff will
understand their responsibilities and consistently implement the processes. Formal
written policies and procedures are vital to a strong control structure because they
ensure that the established controls are communicated to all staff and that appropriate
approvals and authorizations are obtained. Further, documented procedures would aid
in training and guiding staff when substituting for other staff members or assuming
responsibility for the various processes.

Recommendations. The Executive Director should:

Recommendation 1: Update LSVI's accounting manual to be consistent with the
requirements contained LSC's Accounting Guide, especially in the areas of inventory
control and contracting.

Recommendation 2: Once LSVI's accounting manual is updated, ensure that all revised
policies and procedures are properly implemented .


          SUMMARY OF GRANTEE MANAGEMENT COMMENTS

Grantee management agreed with all the findings and recommendations contained in
the report. Grantee management took immediate corrective actions to implement the
recommendations and provided a revised and updated Accounting Manual. A copy of
their response is included as an appendix to this report.


     OIG EVALUATION OF GRANTEE MANAGEMENT COMMENTS

Grantee management comments were responsive to all of our findings and
recommendations. The actions taken by grantee management to revise and update
their accounting manual met the intent of the recommendations. The OIG considers
these recommendations closed.




                                           4
                                                                                                        APPENDIX
   •            LEGAL SERVICES OF THE VIRGIN ISLANDS, INC.


 ~
                    COMMUNITY LAW CENTER                                      ADMINISTRATIVE OFFICE




 ..                  No. 1832 Kongcns Gade
                   Charlorte Amahe. St. Thom2s
                    U .S. Virgin Islands u08U2
                           (340) 7746720
                        F:lx: (340\ 777 -8686
                Email: suoffice@leg.ilccrvict..svi.org
                                                                           No. 3017 Estate Orange Grove
                                                                                Christiamlled. St. Croix
                                                                           U .S. Virgin l,l.ods 00820-4375
                                                                                    (340) 718-2026
                                                                                 Fax: (34<)) 718-8593
                                                                                          Em;oil:
                                                                          richa..nJ.2usti.n@lleg!1lservice::vi.org

 PLEASE REPLY TO: ADMINISTRATIVE OFFICE




                                                         April 25, 2913

        VIA EMAIL TO: nnerrvman@oig.lsc.gov AND REGULAR US MAIL

        Mr. Ronald Merryman
        Assistant Inspector General for Audit
        Office of Inspector General
        Legal Services Corporation
        3333K Street, NW
        Washington, DC 20007-3522

        RE: Response to Draft Report No. AU13·XX

        Dear Mr. Merryman:

               This will acknowledge the receipt of your letter dated March 27, 2013, with
        the enclosure of the Draft Report on Selected Intemal Controls Legal Services of
        the Virgin Islands, Inc., RNO 254000, Report No. AU13-XX March 2013.

                The Draft Report was reviewed by management and the LSVI Board of
         Directors at a ieeent meeting and I have been authorized to submit this
         response.

                We very much appreciated the professional manner in which Ms. Maliza
         Ella and Mr. John Seeba conducted the on-site field audit. Mr. Anthony M.
         Ramirez, team leader, was also very helpful in arranging the audit.

                We find the Draft Report to be very helpful and instructive. We agree with
         and accept the recommendations. We have revised and updated our Accounting
         Manual as follows: Accounting For Capital Assets section to include an
         Inventory Control Procedure; and Purchasing/Procurement Procedures
         seetion to include a Contractual Relations Procedure. We have enclosed
         copies of these revisions.

               We thank you for this endeavor which has allowed us to strengthen our
         intemal controls and accounting procedures.



iI!!:LSC                                                                                                 Unlled way
              LEGAL SERVICES OF THE VIRGIN ISLANDS, INC.




  -..
              Mr. Ronald Merryman
              April 25, 2013
              Page 2.




                                        Sincerely,


                                        Richard Austin, Esq.


                                       ~~~~~§2~'
                                               - - =====~._
                                        Executive Director

        Enclosures

        Cc: Mr. Dwayne Henry, Esq., President, LSVI Board of Directors
            Mr. Kenneth Guye, CFO




jj!:bLSC                                                                 Dolled way
ACCOUNTING FOR CAPITAL ASSETS

POLICY:

•   Property acquisitions of non expendable items with a value in excess of $5,000 each and with
    a useful life of more than one year will be capitalized and depreciated. Identification of funds
    used to purchase property.

•   Property donations valued in excess of $5,000 each and with a useful life of more than one
    year will be reported as unrestricted revenues, unless donor restrictions apply. If the
    donation is initially reported as temporarily restricted, the restriction is deemed to be prorated
    over the useful life of the item, i.e., in proportion to the depreciation for a comparable
    depreciable asset.

•   Property purchases in an amount of $10,000 or more for a single item to be acquired with
    LSC funds will require prior LSC approval pursuant to LSC Regulations, Section 1630.5.
    The Executive Director or hislher designee will request the prior approval.


•   Items that are deemed to be capitalized will be recorded as an equipment acquisition
    (recorded as a debit) with the offsetting credit to cash. In addition, at year-end, the
    acquisition will be reported in Changes in Net Assets.


•   For management reporting purposes, fixed asset purchases are treated as expenses during the
    year and closed to the appropriate fund balance as a fund transfer along with all support and
    expense account at year-end.

•   DEPRECIATION
•   Depreciable items will be expensed using a straight-line method as follows:
•   Computers                               3 years
•   Law Library                             5 years
•   Furniture and Fixtures                  7 years
•   Equipments                              7 years
•   Leasehold/Building Improvements         Term of lease or life of improvement,
                                            Whichever is shorter?

INYENTORY CONTROL PROCEDURE
All capitalized assets, including equipment and furniture, shall be tagged by the CFO, or
designce. A detailed inventory log of all tagged items shall be maintained by the CFO. The log
shall include the following inforn1ation with respect to each asset:
I. Date of acquisition
2. Cost
3. Description (Including color, model and serial number)
4. Location of asset
5. Depreciation method
6. Estimated useful life

A physical inventory of all capitalized assets will be taken by the CFO, or designee, every two
(2) years and more often when warranted, for example, when theft is suspected or occurs, or an
office is moved. Results of the inventory will be reconciled to the inventory log and financial
statements and adjustments made as necessary.

•   DISPOSALS
•   Net gains or losses from the disposal of property will be reported as revenue or expense in
    the fund where the property was originally purchased. Gain or loss is defined as the
    difference between the sales proceeds and the net book value.

•   Amounts required to be written off through abandonment or loss will be recognized an
    expense in the property fund and the equipment fund.


•   When an item of non expendable property or equipment becomes unserviceable or no longer
    needed, it shall be disposed of by one of the following methods:

    Property with a fair market value of less than $5,000 will be donated to another
    Non profit corporation or sold to the highest bidder;

Property with a fair market value of more than $5,000 will be transferred to another non-profit
organization servicing the poor within our community. If another non-profit organization cannot
be located for the donation, the property will be advertised and sold to the highest bidder;

If no other avenues are available, the property will be sold to an employee or to a member of
hislher family. When this situation occurs all employees shall be given an opportunity to bid on
the property; and if an item is unusable, it will be disposed of.

Adjustments resulting from sale, retirement and resulting from theft are reviewed and   recorded
by the CFO and approved by Executive Director.

For detailed instructions for the proper treatment of LSC furniture, buildings, equipment and
improvements, see the LSC Property Management Guide.
PURCHASINGIPROCUREMENT PROCEDURES

PROCUREMENT

Legal Services of the Virgin L~lands, Inc., (LSVI) offices and staff are required to follow the
procedures established herein within their delegated purchasing authority. Funds administered
by LSVI are subject to Federal, territorial and intemaIlextemal audit. TIlerefore, purchasing
procedures must be consistent with the LSC Property Acquisition and Management Manual
(PAMM) when LSC funds are used, as well as federal and territorial laws and LSVI policies and
procedures. LSVI uses three basic procurement processes: (1) purchase orders/check requests,
(2) vendor agreements, and (3) projectlbid contracts. Procurement is used in the purchase of
equipment and supplies necessary for the daily operation of LSVI, including, not limited to:
facsimile machines, computers and computer systems, copy/multi-function machines, video
conferencing equipment and systems, office furniture and supplies and any other incidental
purchases that may be necessary and proper for the orderly operation of LSVI.

The following procedures support federal guidelines dealing with procurement and apply to
contracts and leased, as well as purchased items.

These procedures will be followed precisel y for all procurement. In any case, selection of other
than lowest bidder must always be fully justified. All transactions, whether negotiated or
competitively bid and without regard to dollar value, shall be conducted in a manner so as to
provide maximum open and free competition.

LSVI shall be alert to organizational conflicts of interest or non-competitive practices among
contractors which may restrict or eliminate competition or otherwise restrain trade. Contractors
who develop or draft specifications, requirements, statements of work and/or Requests for
Proposal (RFP) for a proposed procurement shall be excluded from bidding or submitting a
proposal to compete for the award of such procurement.

I. Purchases or services $2,500 and less: Purchases or services not exceeding $2,500 may be
   accomplished without securing competitive quotations if the prices are considered fair and
   reasonable.       If other than the lowest bid/quote is selected, provide sufficient
   justification/rationale must be provided.

2. Purchases or services over $2,501: On any item, whose total cost is over $2,501 written
   solicitation of written bids/quotes from a minimum of three qualified ~ources of supply must
   bl! made. The award shall be made to the lowest responsive and responsible vendor. If other
   than the lowest bid/quote is selected, provide sufficient justification/rational\! must be
   provided. Expenditure of LSC funds of $10,000 or more requires LSC prior approval.

3. The Executive Director must approve all expenditures after reviewing the proposals and
   [\!Commendations of the CFO.
CONTRACfUAL RELATIONS

LSVI may enter into written contracts in specific situations, such as those listed below:
   • Leases
   • Real estate
   • Purchase orders
   • Employment
   • Insurance
   • Vendors
   • Consultants
Contracts for professional services must clearly define the services to be rendered. The Board of
Directors must approve the contract with the independent auditing firm for the annual audit.
Copies of all contractual agreements will be maintained by the accounting department for a
period of seven years. Authority to sign on behalf of the organization is vested in the Executive
Director. The process for entering into contracts involves the following steps: identification of
need~, revi~w of available options, comparison of costs, review of the need for competitive bids,
documented justification for expenditures and record keeping of acquired property. The
procedure for entering into contracts is stated herein.

LSVI has an overall system of contract administration to ensure proper oversight and
management of procurement actions. LSVI is responsible for evaluating contractor performance
and documenting, as appropriate, whether contractors have met the terms, conditions and
specifications of the contract. This may include progress inspections, interim products,
inspection of goods delivered, and other such methods that provide assurance that the goods or
services purchased are being delivered within the scope of the contract.

LSVl's contract administration system must ensure that:

    •   All necessary funding sources are obtained prior to entering into contracts by the
        Executive Director

    •   The method of procurement is documented and records maintained for five years after
        final payment is made;

    •   /\11 activities arc carried out and costs are incurred in compliance with applicable
        requirements;

    •   Before payment is made, services performed are adequate and consistent with the
        contract scope of services; and

    •   Any necessary changes to an existing contract are made in writing and future obligations
        are adjusted to reflect the new contact.
PROCEDURES

CFO identify the items, supplies, equipment or service needed through a purchase requisition
form. (See Purchase Order Request Form LSVI 221 and Supply Requisition Form LSVI 217)
Supplies are stored in a storage which is reasonable protected from theft, deterioration and
damage.

•   A "purchase requisition" accurately describing the needed items in terms of specification,
    quantity and delivery requirements and vendor's address is prepared by the Branch Office.

•    A completed purchase requisition is forwarded bye-mail to the Executive Director for
    approval, based upon the budget. The CFO uses the supplies requisition to determine
    whether the funds are available for the purchase.

•   Once the purchase requisition is approved by the CFO, the acquisition is then submitted to
    the Managing Attorney and Executive Director for approval. Once approved by the
    Executive Director, the LSS proceeds to purchase the supplies from the approved vendors.
    Pre-approved vendors are used for recurring purchases. Pre approval is also needed for online
    and telephone purchases.

•   The goods are checked by a LSS against the Purchase Requisition and invoice to assure that
    the shipment is accurate.

•   The Accounting Department matches the purchase requisition and invoice to the PO and the
    receiving documents. Actual quantities received are recorded.

•   The invoice is the seller's statement of what has been shipped to the buyer and the payment
    the seller expects. The invoice is checked against the original purchase order in terms of
    quantity and price. The invoice is entered into accounts payables, along with proper
    documentation and paid.
      LSVI-221                    Purchase Order Request Form

    Name of Vendor: _ _ _ _ _ _ _ _ _ _ _ __                           Date of Request: _--LI_.!.I__

Address: _ _ _ _ _ _ _ _ _ _ _ _ _ _ __




    ITEM #                                  DESCRIPTION                     QTY      UNIT PRICE         TOTAL




-




               -




--                                                                                   SUBTOTAL



    Requested By:                                   Managing Attomey         Date: _-.!...I_LI__


                                                          Initials

    Approved by CFO:                                                         Date:      I   I




    Approved by Executive Director:                                          Date: _-.!...I_LI__




    Legal Services of tne Virgin Islands, Inc.                                                  LSVI·221, Page 1 of 1
  LSVI-217
__ u   _ _   ____   ~_   -
                              Supply Requisition
                                                             Date: _ _ _ _ _ _ _ _ _ _ __
To:
      ----------------------
From: _____________________

                    Alphabetical Index Cards:                    Paper Clips:
                    3x5       5x8                                Regular _      Large _

                    Acco Fasteners & Bases                       Pencils

                    Binders w/Capacity:                          Receipt Book
                    1     1~        2        3
                                                                 Ruler
                    Bond Paper:
                    Plain           Red Ruled _ _
                                                    --           Rubber Bands

                    Calendar Refill
                                                    --           Staples

                    Corrac1-O-Type Liquid                        Staplers

                    Desk File Holder                             Staple Remover

                    Dic1ionary                                   Stamp Pad

                    Envelopes                                    Stamp Pad Inker:
                                                                 Blk _ _ Red _ _
                    Envelopes, Manila W/Clasp:
                    5x8     9x12     12x15                       Scotch Tape

                    Pens: Papermate                              Masking Tape
                    Blk    Blue     Red
                                                                 Tape Dispenser
                    File Folders
                                                                 Pads "While You Were Out"
                    Index Cards:
                    Blank 3x5 __ 5x8 _ _                         Legal Pads
                    Rule 3x5     5x8
                                                                 Highlighters
                    Typewriter Ribbon
                                                                 Accordion Folders
                    ·postlr Pads
                                                    Misc.:
                    Leiter Opener

                    Liquid Thinner

                     Labels

 Legs Services of !he Wgin [slaMs, Inc.                                           Lsv\-217, Page 1 of 1
